TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Embedded Quality Is an Effective Measure of
                    Field Collection Program Work, but
                       Improvements Could Be Made



                                         August 13, 2009

                              Reference Number: 2009-30-104




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 13, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Embedded Quality Is an Effective Measure of
                                 Field Collection Program Work, but Improvements Could Be Made
                                 (Audit # 200830020)

 This report presents the results of our review to determine whether the Embedded Quality1
 program in the Collection function is an effective measure of the quality of the function’s work
 and how management uses the results to assess program performance. This review was included
 in our Fiscal Year 2008 Annual Audit Plan under the major management challenge of Tax
 Compliance Initiatives.

 Impact on the Taxpayer
 Embedded Quality measures employee performance on casework and identifies areas for
 organizational and individual improvement. Overall, Embedded Quality is an effective measure
 of the quality of Field Collection program work. Although group managers rated many of the
 attributes accurately in the employee performance review system of Embedded Quality, our
 review determined that 64 (10 percent) of 651 quality attributes tested were rated inaccurately.
 Without appropriate employee performance feedback, errors in collection procedures could
 continue to occur and affect taxpayer rights and payment of tax liabilities.




 1
     See Appendix IV for a glossary of terms.
                 Embedded Quality Is an Effective Measure of Field Collection
                     Program Work, but Improvements Could Be Made




Synopsis
Recent Collection function operational priorities emphasize improving customer service to
taxpayers by conducting continuous reviews of quality and ensuring consistency and accuracy of
review systems. Embedded Quality consists of two distinct systems: the National Quality
Review System (NQRS) for organizational case quality and the Embedded Quality Review
System (EQRS) for employee case performance. Both systems rate how well employees are
performing their work on cases by evaluating various attributes which are concise statements of
expectations for quality on Collection function cases. Both systems rate most of the same
attributes.
Our review of Embedded Quality determined that it is an overall effective measure of the quality
of Field Collection program (Collection Field function and Offer-in-Compromise program)
work. In Fiscal Year 2008, the attributes were adequately aligned with Collection function
priorities, Collection function management identified deficiencies and implemented
improvement strategies, and NQRS results were statistically valid. Our review of 93 NQRS
cases showed that NQRS reviewers accurately rated 97 percent of attributes tested. In addition,
Collection function management analyzed and used the quality results regularly to assess the
program and help identify problems that required changes in such areas as collection procedures
and training.
Our review of 93 EQRS cases for which we reviewed 651 attributes showed that group managers
rated 587 (90 percent) of the attributes accurately. However, group managers incorrectly rated
64 (10 percent) of the 651 attributes. Incorrectly applying attributes could affect the accuracy of
quality results and individual employee performance evaluations. In addition, when deficiencies
are not identified, managers may not take proper corrective action to improve them. We
determined that 1) frequent revisions to the guidance used by reviewers and 2) managers not
performing all required consistency reviews may have impacted the accuracy of reviews.
Internal Revenue Manual guidelines prohibit NQRS data from being used to evaluate individual
employees or used as a substitute for first-line managerial review responsibilities. However,
individual NQRS case results are being provided to Territory managers, who share the results
with group managers and staff. Sharing NQRS Data Collection Instrument information with
group managers and individual employees makes it possible for performance feedback to be
given based on the results. Although we did not identify this happening, it could be considered a
type of performance feedback, even if only by appearance.
Management informed us that the information is used only as an objective, educational tool at
group meetings; however, some managers had shared NQRS data with employees individually.
Further, if EQRS attributes are rated accurately, they should provide similar results as the NQRS
and be the basis for individual case examples, rather than being used in conjunction with specific
case results from the NQRS. The Internal Revenue Service (IRS) Labor Relations function

                                                                                                  2
                 Embedded Quality Is an Effective Measure of Field Collection
                     Program Work, but Improvements Could Be Made



advised Collection function management that they should discontinue this practice so the
information cannot be misused. In addition, we noted that this practice is not consistent within
the Small Business/Self-Employed Division. Small Business/Self-Employed Division
Examination function management requested advice on this same issue from the IRS Labor
Relations function and followed their advice to not request NQRS Data Collection Instrument
information.

Recommendations
We recommended that the Director, Collection, Small Business/Self-Employed Division, study
alternative methods to ensure accuracy and consistency in EQRS reviews, such as requiring
Territory managers, on a regular basis, to review a sample of EQRS case reviews performed by
group managers for some revenue officers within each group. In addition, the Commissioner,
Small Business/Self-Employed Division, should assess whether the risk is warranted for the
process of sharing NQRS specific case information with group managers and set a consistent
policy within the Division.

Response
IRS management agreed with our recommendations. The Director, Collection, will update the
Territory Manager guidelines to include a review of a sample of cases previously reviewed by
the group manager during operational reviews. The review data will be captured in the EQRS,
allowing systemic comparison of case review attribute ratings. This change, coupled with
existing expectations that are included in the Territory Manager Operational Review Template,
will contribute to continued improvement in rating accuracy and consistency. In addition, policy
has been established that individual NQRS case review information will not be shared with field
personnel including managers and front-line employees. The Director, Collection has
discontinued the practice of sharing NQRS individual case review data (Data Collection
Instrument) with the field function for both the Collection Field function and the
Offer-in-Compromise program. Management’s complete response to the draft report is included
as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                   3
                        Embedded Quality Is an Effective Measure of Field Collection
                            Program Work, but Improvements Could Be Made




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Embedded Quality Is an Overall Effective Measure of the Quality
          of Field Collection Program Work ...............................................................Page 3
          Managers Rated Most Attributes Accurately, but We Identified
          Some Inaccuracies ........................................................................................Page 4
                    Recommendation 1:..........................................................Page 6

          National Quality Review System Data Are Being Shared in a Different
          Way Than Intended.......................................................................................Page 6
                    Recommendation 2:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Glossary of Terms................................................................Page 13
          Appendix V – Attributes Included in the Case Review................................Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 16
        Embedded Quality Is an Effective Measure of Field Collection
            Program Work, but Improvements Could Be Made




                       Abbreviations

CFf              Collection Field function
EQ               Embedded Quality
EQRS             Embedded Quality Review System
FY               Fiscal Year
IRM             Internal Revenue Manual
IRS             Internal Revenue Service
NQRS             National Quality Review System
OIC             Offer-in-Compromise
SB/SE            Small Business/Self-Employed
                       Embedded Quality Is an Effective Measure of Field Collection
                           Program Work, but Improvements Could Be Made




                                               Background

Embedded Quality (EQ)1 is a quality review program that allows Internal Revenue Service (IRS)
Small Business/Self-Employed (SB/SE) Division management to measure employee
performance on casework and identify areas for organizational and individual improvement. The
data from the EQ are used to evaluate case quality and determine the effectiveness of its
programs. The SB/SE Division Collection function uses the EQ in its Field Collection program
including the Collection Field function (CFf) and Offer-in-Compromise (OIC) program.
The SB/SE Division Strategic Plan and Collection function’s strategies and operational priorities
for Fiscal Year (FY) 2008 reflected the EQ and its significance in affecting casework quality.
Strategies emphasized improving customer service to taxpayers by conducting continuous
reviews of quality and ensuring consistency and accuracy of review systems. In FY 2009,
Collection function management continued to emphasize quality.
The EQ is comprised of two distinct systems: the National Quality Review System (NQRS) to
measure organizational case quality and the Embedded Quality Review System (EQRS) to
measure employee case performance. Reviewers in both programs evaluate collection cases
using various attributes. Attributes are concise statements of expectations for quality relating to
appropriate and timely case activity, and are based on Internal Revenue Manual (IRM)
guidelines for CFf and OIC program casework. Both systems rate most of the same attributes.
The attributes are grouped into five key categories that measure customer accuracy, regulatory
accuracy, procedural accuracy, professionalism, and timeliness.
The CFf and OIC program have their own group of NQRS reviewers that independently rate case
actions on closed cases based on the attributes. Collection function managers can analyze the
results of NQRS reviews at various organizational levels such as national, Area Office, and
Territory. NQRS results are statistically valid to the Area Office level on a quarterly basis.
The EQRS replaced various paper-based review systems in April 2007. Group managers rate
individual employee performance on case actions in the EQRS and use the results to generate
feedback and documentation for performance reviews. The attributes are linked to performance
standards to allow managers to provide employees with specific examples of what they need to
do to sustain or improve their performance. Managers choose from a list of reasons and/or
explain in narrative form why attributes were met or not met.
This review was performed at the SB/SE Division Collection function offices in
Oakland, California; Sacramento, California; Plantation, Florida; Atlanta, Georgia; and
New Carrollton, Maryland, and at the Philadelphia Campus in Philadelphia, Pennsylvania,

1
    See Appendix IV for a glossary of terms.
                                                                                             Page 1
                 Embedded Quality Is an Effective Measure of Field Collection
                     Program Work, but Improvements Could Be Made



during the period August 2008 through March 2009. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                   Embedded Quality Is an Effective Measure of Field Collection
                       Program Work, but Improvements Could Be Made




                                    Results of Review

Embedded Quality Is an Overall Effective Measure of the Quality of
Field Collection Program Work
To assess CFf and OIC program work quality, NQRS reviewers evaluate actions on closed
collection cases. NQRS reviewers are required to rate 30 CFf or 24 OIC program attributes for
each case and choose from a list of reasons and/or explain in a narrative why a specific attribute
was not met. It is important that reviewers rate attributes accurately to produce reliable results.
To determine if NQRS reviewers were rating cases
accurately, we reviewed 93 NQRS cases (56 CFf and
                                                                       The EQ is effective for
37 OIC).2 Our review of 8 CFf and 5 OIC                              measuring quality because
attributes3 from each case showed that, based on the               samples are statistically valid,
criteria for rating the attributes, NQRS reviewers in              NQRS reviewers rate attributes
both the CFf and OIC program accurately rated                       accurately, and management
97 percent of the attributes tested.                               uses the results to assess the
                                                                        program and make
IRM guidelines state that NQRS results are                                improvements.
statistically valid and reliable measurements of the
overall quality of casework completed by the CFf and
OIC program at the Area Office level. The Collection Planning and Analysis Office is required
to update sample plans annually. Our analysis of Area Office populations and recalculation of
sample sizes for FY 2008 showed that sampling plans were valid and an adequate number of
NQRS cases were reviewed.
All levels of Collection function management use EQ review findings to help identify problems
that require changes in such areas as collection procedures and training. In the three field offices
visited, our interviews of all levels of Collection function management showed that they
analyzed EQ results regularly to assess the program and used the results to create and implement
plans for improvement. For example:
    •   Collection function management 1) emphasized EQ attributes in the Collection function’s
        FY 2008 strategic priorities, 2) analyzed EQ reports and provided detailed analysis to
        Area Offices on a quarterly basis, 3) participated in manager and group staff meetings
        and consistency review discussions, and 4) held periodic meetings to improve the

2
  Cases were reviewed by NQRS reviewers between July 26, 2008, and October 16, 2008, for the CFf and between
August 18, 2008, and October 3, 2008, for the OIC program.
3
  See Appendix V for the attributes reviewed.
                                                                                                      Page 3
                  Embedded Quality Is an Effective Measure of Field Collection
                      Program Work, but Improvements Could Be Made



       EQ system by clarifying attributes and making revisions to the Attribute Job Aids and the
       EQ reporting system when necessary.
   •   Area Directors 1) included EQ issues in their FY 2008 Area Office Business Plans,
       2) analyzed EQ quarterly reports as a starting point for improvement plans, 3) identified
       best practices and created presentations for field managers and staff on specific attributes,
       and 4) expected field managers to use EQ results to develop local action plans for
       improvement.
   •   Territory managers analyzed EQ results in more detail to look for specific trends and to
       help identify deficiencies and implement improvement plans.
   •   Group managers developed presentations and discussed at group meetings specific
       attributes that needed improvement.

Managers Rated Most Attributes Accurately, but We Identified Some
Inaccuracies
The EQRS is a tool used by managers to rate how well employees are taking actions on their
casework by evaluating certain case attributes. The case
attributes, which are linked to employee performance
                                                              Although managers accurately
standards, are based on IRM guidelines for working CFf        rated many attributes based on
and OIC program cases. Group managers use an                      the criteria, our review of
Attribute Job Aid, along with the IRM, when performing 93 cases involving 651 attributes
EQRS reviews. Although these scores are not                    showed that 10 percent of the
                                                             attributes were rated incorrectly.
statistically valid to measure overall quality, the EQRS
provides a structured basis for evaluating employee
performance in relation to attribute scores and providing appropriate feedback. Managers
provide results to employees via the EQRS Employee Individual Feedback Report.
Our review of 93 EQRS cases (62 CFf and 31 OIC cases) in 3 Area Offices during FY 2008
showed that improvements are needed to ensure more accurate results. We reviewed 8 of the
32 CFf attributes and 5 of the 26 OIC program attributes in the EQRS.
Managers rated 587 (90 percent) of the 651 attributes in the 93 cases accurately according to the
criteria; however, our review showed that managers incorrectly rated 64 (10 percent) of 651
attributes. In approximately half the cases we reviewed, there was at least one error. Figure 1
shows the number of cases, total attributes reviewed, and the number of errors identified for both
CFf and OIC program cases.




                                                                                             Page 4
                    Embedded Quality Is an Effective Measure of Field Collection
                        Program Work, but Improvements Could Be Made



                                Figure 1: Analysis of EQRS Cases
                                          Number     Percent      Number               Percent
                               Number     of Cases   of Cases        of                   of
                  Collection   of Cases     With       With      Attributes            Attribute
                  Program      Reviewed    Errors     Errors     Reviewed     Errors    Errors
                  CFf             62         30        48%          496         48       10%
                  OIC             31         13        42%          155         16       10%
                  Total           93         43        46%          651         64       10%
                  Source: Treasury Inspector General for Tax Administration case review results.4

Although Figure 1 shows that we identified rating errors in 10 percent of the total attributes
reviewed, 55 (86 percent) of the 64 errors favored the employee. Specifically:
    •   45 attributes were rated as having met the attribute requirement or as “not applicable”
        when the attribute should have been rated as “not met.”
    •   10 attributes were rated as having met the attribute requirement when the attribute should
        have been rated as “not applicable.”
Incorrectly applying the attributes in EQRS case reviews could affect the accuracy of quality
results and employee performance reviews. In addition, when deficiencies are not identified,
managers may not take proper corrective action to improve them. Without appropriate employee
performance feedback, errors in collection procedures could continue to occur and affect
taxpayer rights and payment of tax liabilities.
One contributing factor to the errors may be that consistency reviews were not being conducted
as required by the IRM, which states that Territory managers will schedule and conduct EQRS
consistency reviews with group managers on a quarterly basis. Consistency reviews involve all
group managers within a Territory reviewing the same case and comparing and discussing
attribute results on a quarterly basis. This is useful to help achieve consistent understanding and
accurate scoring of attributes. The Territory managers we interviewed did not perform the
required consistency reviews of one per quarter with their group managers. During FY 2008,
most of the Territory managers had performed only one consistency review and participated with
their group managers in one national consistency review.
Another possible cause of rating errors is that in an effort to improve the EQ system, Collection
function management has made continual changes in the attribute definitions since the EQRS
was implemented in April 2007. Specifically, there have been four CFf and two OIC program
major Attribute Job Aid revisions since the implementation. The managers we interviewed
indicated that it is sometimes confusing and burdensome for employees, managers, and NQRS
reviewers to keep up with learning new attribute rating guidance and that if one attribute is


4
 Our analysis consisted of closed cases reviewed in the EQRS between April 1, 2008, and June 27, 2008, for the
CFf and between October 5, 2007, and June 30, 2008, for the OIC program.
                                                                                                          Page 5
                  Embedded Quality Is an Effective Measure of Field Collection
                      Program Work, but Improvements Could Be Made



missed, the next few may also be missed if they are closely related. Until attribute definitions
and Attribute Job Aids are firmly established, it will be more difficult for reviewers to
understand the definitions and consistently rate the attributes.

Recommendation
Recommendation 1: The Director, Collection, SB/SE Division, should study alternative
methods to ensure accuracy and consistency in EQRS reviews, such as requiring Territory
managers, on a regular basis, to review a sample of EQRS case reviews performed by group
managers for some revenue officers within each group.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Collection, will update the Territory Manager guidelines to include a review of
       a sample of cases previously reviewed by the group manager during operational reviews.
       The review data will be captured in the EQRS allowing systemic comparison of case
       review attribute ratings. This change, coupled with existing expectations that are
       included in the Territory Manager Operational Review Template, will contribute to
       continued improvement in rating accuracy and consistency.

National Quality Review System Data Are Being Shared In a Different
Way Than Intended
Prior to the EQ, the Collection Quality Management
System was used to rate only organizational quality      Providing individual case results
                                                             from the NQRS to group
based on closed cases. The EQ was created to allow       managers and employees is not
for two separate but related systems: the NQRS for       using NQRS results as intended.
organizational case quality and the EQRS for
employee case performance. Both systems rate most
of the same attributes, and the EQRS is also linked to employee performance standards. The
idea is that as employee performance improves by following the same attributes, overall NQRS
scores would also improve. IRM guidelines state that NQRS data are to be used as measures of
organizational quality and not to evaluate individual employees, and the NQRS is not a substitute
for first-line managerial review responsibilities.
In FY 2008, Collection function management implemented a process to provide individual
NQRS reports (known as Data Collection Instruments) to Territory managers on a regular basis.
The results can then be shared with group managers and their employees. The process began in
response to requests from Field Collection program managers who wanted an independent,
third-party review or backup for EQRS attribute ratings and NQRS Area Office results. Our
discussions with Field Collection program managers showed that some agreed that reviewing
employee casework in the EQRS provides more specific results for feedback and more
objectivity than the prior paper-based system. However, some managers explained that the

                                                                                            Page 6
                 Embedded Quality Is an Effective Measure of Field Collection
                     Program Work, but Improvements Could Be Made



transition has not been easy for some employees, and the employees do not always agree with
managers’ ratings on specific attributes. In addition, when NQRS Area Office scores show
downward trends, group managers do not always think their groups are responsible for the
downward trends. Collection function management informed us that the Data Collection
Instrument is used only as an objective, educational tool at group meetings and is not usually
shared with individual employees. However, some of the managers informed us that they have
discussed results with individual employees.
Sharing the NQRS Data Collection Instrument information with group managers and
individual employees makes it possible for performance feedback to be given based on the
results. Although we did not identify this happening, it could be considered a type of
performance feedback, even if only by appearance. The sharing of NQRS information with
groups and individual employees suggests that the EQRS process may not be providing
managers with sufficient information to effectively provide feedback to employees. If EQRS
attributes are rated accurately and consistently, they should provide similar results to the NQRS
at the individual level and be the basis for individual case examples, rather than being used in
conjunction with specific case results from the NQRS. Further, NQRS data are not statistically
valid at the group level and should not be considered representative of the group’s performance.
An agreement between the National Treasury Employees Union and the SB/SE Division Field
Compliance function states that NQRS data will not be used as individual employee performance
feedback. IRS management made assertions during negotiations with the National Treasury
Employee Union that NQRS data would not be shared with first-line supervisors and there was
supposed to be no direct link to individual employees or groups.
The IRS Labor Relations function has advised Collection function management that they should
discontinue this practice so the information cannot be misused. Further, we noted that this
practice is not consistent within the SB/SE Division. SB/SE Division Examination function
management requested advice on this same issue from the Labor Relations function. Unlike
Collection function management, Examination function management followed the Labor
Relations function advice to not request NQRS Data Collection Instrument information.

Recommendation
Recommendation 2: The Commissioner, SB/SE Division, should assess whether the risk is
warranted for the process of sharing NQRS specific case information (through the Data
Collection Instrument) with group managers and set a consistent policy within the
SB/SE Division.
       Management’s Response: IRS management agreed with this recommendation.
       Policy has been established that individual NQRS case review information will not be
       shared with field personnel including managers and front-line employees. The Director,


                                                                                           Page 7
          Embedded Quality Is an Effective Measure of Field Collection
              Program Work, but Improvements Could Be Made



Collection, has discontinued the practice of sharing NQRS individual case review data
(Data Collection Instrument) with the field function for both the CFf and OIC program.




                                                                                 Page 8
                       Embedded Quality Is an Effective Measure of Field Collection
                           Program Work, but Improvements Could Be Made



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the EQ1 program in the Collection
function is an effective measure of the quality of the function’s work and how management uses
the results to assess program performance. To accomplish our objective, we:
I.         Determined the effectiveness of EQ program controls, procedures, and sampling process.
           A. Identified NQRS and EQRS IRM procedures and key controls for the CFf and OIC
              program.
           B. Compared NQRS/EQRS quality attributes with CFf and OIC program management
              priorities such as taxpayer rights, timeliness of work, and professionalism to
              determine if they are adequate. We also compared the EQRS quality attributes to
              employee performance standards to determine adequacy.
           C. Determined whether the number of cases reviewed by NQRS reviewers in the CFf
              and OIC program were statistically valid at the Area Office level during FY 2008.
              We duplicated sample plan populations by pulling the first 3 quarters of FY 2007
              closed cases from Integrated Collection System archived records and Automated OIC
              records using the Treasury Inspector General for Tax Administration Data Center
              Warehouse. We relied on the Data Center Warehouse validations of IRS data.
II.        Determined whether reviewers accurately assessed and scored quality attributes.
           A. Obtained a judgmental sample of 93 NQRS closed cases (56 CFf and 37 OIC
              program cases from all Area Offices nationwide) at the Oakland, California, and
              Atlanta, Georgia, NQRS review sites that were reviewed between July 26, 2008, and
              October 16, 2008, for the CFf and between August 18, 2008, and October 3, 2008, for
              the OIC program. We do not have a population size since these were cases we asked
              management to hold for us as NQRS reviews were being completed during those time
              periods and we did not count them when we chose our sample. We reviewed a
              judgmental sample of eight CFf and five OIC program attributes2 on each case. We
              used judgmental sampling for the cases due to the availability of cases at the review
              sites and for the attributes because of limited resources and time available to complete
              the audit in a reasonable time period. Also, we did not anticipate being able to project
              the results.


1
    See Appendix IV for a glossary of terms.
2
    See Appendix V for the attributes reviewed.
                                                                                               Page 9
                 Embedded Quality Is an Effective Measure of Field Collection
                     Program Work, but Improvements Could Be Made



       B. Obtained a download from IRS management of closed CFf cases (population of
          721 CFf and 292 OIC cases) from 3 Area Offices reviewed by group managers in the
          EQRS between April 1, 2008, and June 27, 2008, and closed OIC cases reviewed by
          group managers in the EQRS between October 5, 2007, and June 30, 2008. We
          reviewed a judgmental sample of 8 CFf and 5 OIC program attributes for a
          judgmental sample of 93 EQRS (62 CFf and 31 OIC program) cases. Due to the
          large number of EQRS reviews, we used judgmental sampling for both attributes and
          cases because of limited resources and time available to complete the audit in a
          reasonable time period. Also, we did not anticipate being able to project the results.
          We relied on the data provided by the IRS and only validated the data by ensuring the
          reviews were within our time period and the dates matched the dates on the actual
          Employee Individual Feedback Report.
III.   Determined how EQ results are used to assess the Collection function program.
       A. Analyzed NQRS and EQRS reports to determine if any trends or common variables
          are present for the 9 quarters beginning October 1, 2006, through December 31, 2008.
          We relied on the data provided by the IRS.
       B. Identified the top 10 NQRS and EQRS defects and successes for the same period as
          stated in Step III.A. and compared past top 10 lists to determine the progress of
          particular attribute ratings. We relied on the data provided by the IRS.
       C. Interviewed various levels of Collection function managers to ascertain:
          1. Management expectations and responsibilities for the EQ.
          2. Reviewer responsibilities, qualifications, and training requirements.
          3. Consistency review requirements.
          4. How EQRS cases are selected for review.
          5. How NQRS/EQRS results are used in the field offices.
          6. How management analyzed results, identified trends, disseminated information,
             and created and implemented improvement plans.




                                                                                        Page 10
                Embedded Quality Is an Effective Measure of Field Collection
                    Program Work, but Improvements Could Be Made



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Lynn Wofchuck, Audit Manager
Phyllis Heald London, Lead Auditor
Janis Zuika, Senior Auditor
Frank O’Connor, Program Analyst
Matthew Schimmel, Program Analyst




                                                                                      Page 11
                Embedded Quality Is an Effective Measure of Field Collection
                    Program Work, but Improvements Could Be Made



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:CCS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 12
                   Embedded Quality Is an Effective Measure of Field Collection
                       Program Work, but Improvements Could Be Made



                                                                                Appendix IV

                              Glossary of Terms

         Term                                           Definition
Area Office                A geographic organizational level used by IRS business units and
                           offices to help their specific types of taxpayers understand and
                           comply with tax laws and issues. Area Offices consist of Territory
                           offices which consist of groups.
Attributes                 Concise statements of expectations for quality relating to appropriate
                           and timely case action on Collection function cases.
Attribute Job Aid          A reference tool providing support for NQRS and EQRS reviewers
                           in rating EQ attributes in a uniform and consistent manner.
Campus                     The data processing arm of the IRS. The campuses process paper
                           and electronic submissions, correct errors, and forward data to the
                           Computing Centers for analysis and posting to taxpayer accounts.
Collection Field           The unit in the Area Offices consisting of revenue officers who
Function                   handle personal contacts with taxpayers to collect delinquent
                           accounts or secure unfiled returns.
Collection Planning and    The office that oversees the strategic and business planning process
Analysis Office            for the Field Collection program in the SB/SE Division.
Consistency Reviews        Reviews that involve all group managers with a Territory reviewing
                           the same case and comparing and discussing attribute results on a
                           quarterly basis.
Data Center Warehouse A centralized storage and administration of files that provides data
                      and access services to IRS data.
Data Collection            The tool used by reviewers, both managers and quality reviewers, to
Instrument                 input item-by-item quality review results.
Embedded Quality           The program comprised of two distinct systems: the NQRS for
                           organizational casework quality and the EQRS for employee
                           casework performance. Reviewers use this program to evaluate
                           quality of the actions taken on collection cases.
Embedded Quality           A web-based system used by managers to rate employee collection
Review System              case actions against EQRS attributes.

                                                                                         Page 13
                   Embedded Quality Is an Effective Measure of Field Collection
                       Program Work, but Improvements Could Be Made




         Term                                           Definition
Employee Individual        The report that provides a printed record of manager ratings and
Feedback Report            narrative comments in which the employee’s performance, in
                           relation to specific EQRS attributes, is summarized.
Field Collection           A program that includes the CFf and OIC program in the SB/SE
Program                    Division (for the purposes of this audit).
Field Compliance           The IRS function that includes the Field Collection and Field
Function                   Examination programs in the SB/SE Division.
Integrated Collection      An automated system used to control and monitor delinquent cases
System                     assigned to revenue officers in the field offices.
IRS Labor Relations        The IRS function that provides guidance and representation to IRS
Function                   management in areas such as collective bargaining and interactions
                           and contractual obligations with the National Treasury Employees
                           Union.
National Treasury          The Federal employee union representing IRS employees.
Employees Union
National Quality           A web-based system used by national reviewers to rate employee
Review System              collection case actions against NQRS attributes.
Offer-in-Compromise        An agreement between a taxpayer and the Government that settles a
                           tax liability for payment of less than the full amount owed.




                                                                                           Page 14
                 Embedded Quality Is an Effective Measure of Field Collection
                     Program Work, but Improvements Could Be Made



                                                                           Appendix V

            Attributes Included in the Case Review

Collection Field function                    Offer-in-Compromise Program
202 - Compliance on Initial Contact          106 - Initial Offer Actions
203 - Request/Secure Financial Information   504 - Timely Followup Actions
204 - Trust Fund Recovery Penalty Process    505 - Timely Employee Actions
410 - Lien Determination/Filing              602 - Advised of Consequences
505 - Timely Employee Actions                703 - Closing Reports and Supporting
                                                   Documents
506 - Timely Closing Actions
600 - Clear Action Dates
602 - Advised of Consequences




                                                                                Page 15
    Embedded Quality Is an Effective Measure of Field Collection
        Program Work, but Improvements Could Be Made



                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 16
Embedded Quality Is an Effective Measure of Field Collection
    Program Work, but Improvements Could Be Made




                                                        Page 17
Embedded Quality Is an Effective Measure of Field Collection
    Program Work, but Improvements Could Be Made




                                                        Page 18
